                                                         U.S. OFFICE OF PERSONNEL I'vIANAGEMENT
                                                               OFFICE OF THE INSPECTOR GENERAL
                                                                                OFFICE OF AUDITS




                                     Final Audit Report

Subject:


  AUDIT OF THE INFORMATION TECHNOLOGY
          SECURITY CONTROLS OF THE
  U.S. OFFICE OF PERSONNEL MANAGEMENT'S
  Center for Talent Services General Support System
                       FY 2011
                                              Report No. 4A-CI-00-J 1-043


                                              Date:                    9/28/11




                                                              --CAUTION--
This audit ~port ha~ bun dj~tribultd to hdfr~1 offid~ls l'ho are re~JHlDlible for the IIdmi"i~lrIlCi!lD of the Nudited program. Thi~ audit
rt-port llIay tontoin propriehlry Iblll .. hich i~ protected b~- t"edenlla .. (18 L.S.C. 1\105). Th~refore ... hill' Ihis audit report iSIIHlilable
under the Fr~dom ollnforln>uion ACIIlnd mydc a'-ailable 10 the public 00 the OIG wtbJlll~c. CllIlIian neell~ 10 ~ exercised ocrurc
rdcuing Ihe report to the g(ocrfli public as it may (onlllin propricUry inrorollilion that 'filS I1!da(led from the publicly di stributed copy.
                            UNITED STATES OFFICE OF PERSONNEL MA NAG EMENT
                                             Wa, hington, DC 204 15


  Of1i~'c   (If   th~
In 'JXcior G" nc ral

                                             Audit Report

                              U.S. OFFICI: OF PI:RSONNEL MANAGEMENT


                         AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                            CONTROLS OF THE U.S. OFFICE OF PERSONNI:L
                        MANAGEMENT'S CENTER FOR TALENT SERVICES GENERAL
                                         SUPPORT SYSTEM
                                             FY 2011

                                         WASllNGTON, D.C.




                                     Report No. 4A-CI-OO-ll-043


                                     Date:             9/28/11




                                                                      Michael R. Esser
                                                                      Assistant Inspector General
                                                                        for Audits
                           UNITED STATES OFFICE OF PERSONNEL MANAGEME NT
                                                 Wash ington. DC 20415

   O ffi ce of the
Insp'-dDr General

                                           Executive Summary


                               U.S. OFFICE OF PERSONNEL MANAGEMENT


                        AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                           CONTROLS OF THE U.S. OFFICE OF PERSONNEL
                       MANAGEMENT'S CENTER FOR TALI:NT SERVICES GENERAL
                                        SUPPORT SYSTEM
                                                      FY 2011

                                              WASHINGTON, D.C.




                                        Report No. 4A·CY·OO·ll·043


                                        Date:            9/28/11

        This final audil report di scusses the results of our audit of the infonnation technology security
        controls of the U.S. Office of Personnel Man agement ' s (OPIVI) Center for Talent Services
        General Support System (CTS GSS). Our conclusions are detailed in the " Results" section of
        this report.

        Certification and Accreditation (C&A)
        A security C&A o f CTS GSS was completed in July 2009. We reviewed the certification
        package for aJ I required elements of a C&A, and determined that the package contained all
        necessary documentation.

        Federal Information Processing Standards (FIPS) 199
        A FIPS 199 Analysis of CTS GSS was conducted in May 2009. We agree with the security
        categorization o f moderate for CTS GSS.




        www_ ocm,go~                                                                             www, usajob s .!:o.
Information System Security Plan (ISSP)
The ISSP for CTS GSS contains the critical elements required by National Institute of Standards
and Technology (NIST) Special Publication (SP) 800-18.

Risk Assessment
A risk assessment was conducted for CTS GSS in August 2010 that addresses all the required
elements outlined in relevant NIST guidance.

Independent Security Test and Evaluation (ST&E)
An independent ST&E was completed for CTS GSS as a part of the system’s C&A process in
May 2009.

Annual Self-Assessment
HRS conducted a thorough self-assessment of the security controls of CTS GSS in June 2010.

Contingency Plan
A contingency plan was developed for the CTS GSS that is in compliance with NIST SP 800-34.
However, the CTS GSS contingency plan has only been tested using tabletop exercises instead of
the functional exercise that is required in NIST SP 800-84.

Privacy Impact Assessment (PIA)
A privacy threshold analysis (PTA) was conducted for the CTS GSS. The PTA revealed that
CTS GSS does not require a PIA; we agree with this assessment.

Plan of Action and Milestones (POA&M)
The CTS GSS POA&M follows the format of the OPM POA&M guide, and has been routinely
submitted to the Office of the Chief Information Officer for evaluation.

NIST SP 800-53 Evaluation
We evaluated the degree to which a subset of the IT security controls outlined in NIST SP 800-
53 were implemented for CTS GSS. Although the majority of the tested security controls have
been successfully implemented, several controls were not fully satisfied, including:
•   The computer room that houses the CTS GSS does not have an automatic fire suppression
    system as recommended in NIST SP 800-53.
•   HRS does not have documented emergency response procedures or conduct annual
    emergency response training as required in NIST SP 800-53.




                                               ii
                                                                 Contents
                                                                                                                                               Page

Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives ........................................................................................................................................1
Scope and Methodology ..................................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
         I. Certification and Accreditation Statement ........................................................................4
        II. Federal Information Processing Standards 199 Analysis .................................................4
       III. Information System Security Plan ....................................................................................4
      IV. Risk Assessment ...............................................................................................................5
        V. Independent Security Control Testing ..............................................................................5
      VI. Security Control Self-Assessment ....................................................................................6
     VII. Contingency Planning and Contingency Plan Testing......................................................6
   VIII. Privacy Impact Assessment ..............................................................................................8
      IX. Plan of Action and Milestones Process .............................................................................8
       X. NIST SP 800-53 Evaluation..............................................................................................8
Major Contributors to this Report ..................................................................................................12
Appendix: Human Resources Solutions’s July 15, 2011 response to the draft
          audit report, issued June 21, 2011
                                        Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107‑347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we audited the information technology (IT)
security controls related to the Office of Personnel Management’s (OPM) Center for Talent
Services General Support System (CTS GSS).

                                        Background
CTS GSS is one of OPM’s critical IT systems. As such, FISMA requires that the Office of the
Inspector General (OIG) perform an audit of IT security controls of this system, as well as all of
the agency’s systems on a rotating basis.

CTS GSS provides design, development, and operation of human resources systems for a variety
of functions and customers across the government. OPM’s Human Resources Solutions (HRS)
is the organization responsible for the software development, maintenance, and operations of the
systems contained within the CTS GSS. The hardware supporting those systems is housed at
OPM’s Macon, Georgia facility.

This was our first audit of the security controls surrounding CTS GSS. We discussed the results
of our audit with HRS representatives at an exit conference.

                                          Objectives
Our objective was to perform an evaluation of the security controls for CTS GSS to ensure that
HRS officials have implemented IT security policies and procedures in accordance with
standards established by FISMA, the National Institute of Standards and Technology (NIST), the
Federal Information System Controls Audit Manual (FISCAM) and OPM’s Office of the Chief
Information Officer (OCIO).

OPM’s IT security policies require managers of all major information systems to complete a
series of steps to (1) certify that their system’s information is adequately protected and (2)
authorize the system for operations. The audit objective was accomplished by reviewing the
degree to which a variety of security program elements have been implemented for CTS GSS,
including:

•   Certification and Accreditation Statement;
•   FIPS 199 Analysis;
•   Information System Security Plan;
•   Risk Assessment;
•   Independent Security Control Testing;
•   Security Control Self-Assessment;
•   Contingency Planning and Contingency Plan Testing;
                                                 1
•   Privacy Impact Assessment;
•   Plan of Action and Milestones Process; and
•   NIST Special Publication (SP) 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of HRS officials
responsible for CTS GSS, including IT security controls in place as of May 2011.

We considered the CTS GSS internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives of OPM’s HRS division and other
individuals with CTS GSS security responsibilities. We reviewed relevant OPM IT policies and
procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate, we
conducted compliance tests to determine the extent to which established controls and procedures
are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of CTS
GSS are located in the “Results” section of this report. Since our audit would not necessarily
disclose all significant matters in the internal control structure, we do not express an opinion on
the CTS GSS system of internal controls taken as a whole.

The criteria used in conducting this audit include:

•   OPM Information Technology Security Policy Volumes 1 and 2;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   The Federal Information System Controls Audit Manual;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;


                                                 2
•   NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and
    Capabilities;
•   Federal Information Processing Standards Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from March 2011 through
May 2011 in OPM’s Washington, D.C. and Macon, Georgia offices. This was our first audit of
the security controls surrounding CTS GSS.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether HRS management of CTS GSS
is consistent with applicable standards. Nothing came to our attention during this review to
indicate that HRS is in violation of relevant laws and regulations.




                                               3
                                              Results
 I. Certification and Accreditation Statement
    A security certification and accreditation (C&A) of the CTS GSS was completed in July
    2009.

    OPM’s Acting IT Security Officer (representing the Office of the Chief Information Officer
    or OCIO) reviewed the CTS GSS C&A package and signed the system’s certification
    package on July 7, 2009. The system’s owner signed the accreditation statement and
    authorized the continued operation of the system on July 13, 2009.

    NIST SP 800-37 “Guide for the Security Certification and Accreditation of Federal
    Information Systems,” provides guidance to federal agencies in meeting security
    accreditation requirements. The CTS GSS C&A appears to have been conducted in
    compliance with NIST requirements.

    OPM’s OCIO created and published guidance for preparing and conducting C&A’s in
    January 2011. These policies and procedures are now in effect for all OPM systems. While
    the CTS GSS C&A was appropriately conducted in accordance with the guidance available
    in 2009, we suggest that HRS review OPM’s new C&A methodology and conduct a gap
    analysis to ensure that they are prepared to conduct their 2012 C&A in accordance with the
    new requirements.

II. Federal Information Processing Standards (FIPS) 199 Analysis
    FIPS Publication 199, Standards for Security Categorization of Federal Information and
    Information Systems, requires federal agencies to categorize all federal information and
    information systems in order to provide appropriate levels of information security according
    to a range of risk levels.

    NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories, provides an overview of the security objectives and impact
    levels identified in FIPS Publication 199.

    A FIPS 199 analysis of CTS GSS was conducted in May 2009 as part of the system’s
    Information System Security Plan (ISSP) development. The ISSP categorizes information
    processed by the system and its corresponding potential impacts on confidentiality, integrity,
    and availability. CTS GSS is categorized with a moderate impact level for confidentiality,
    moderate for integrity, moderate for availability, and an overall categorization of moderate.

    The security categorization of CTS GSS appears to be consistent with FIPS 199 and NIST SP
    800-60 requirements, and we agree with the categorization of moderate.

III. Information System Security Plan
    Federal agencies must implement on each information system the security controls outlined
    in NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information

                                                  4
    Systems. NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal
    Information Systems, requires that these controls be documented in an ISSP for each system,
    and provides guidance for doing so.

    The ISSP for CTS GSS was created using the template outlined in NIST SP 800-18. The
    template requires that the following elements be documented within the ISSP:

    •   System Name and Identifier;
    •   System Categorization;
    •   System Owner;
    •   Authorizing Official;
    •   Other Designated Contacts;
    •   Assignment of Security Responsibility;
    •   System Operational Status;
    •   Information System Type;
    •   General Description/Purpose;
    •   System Environment;
    •   System Interconnection/Information Sharing;
    •   Laws, Regulations, and Policies Affecting the System;
    •   Security Control Selection;
    •   Minimum Security Controls; and
    •   Completion and Approval Dates.

    The CTS GSS ISSP adequately addresses each of the elements required by NIST.

IV. Risk Assessment
    A risk assessment is used as a tool to identify security threats, vulnerabilities, potential
    impacts, and probability of occurrence. In addition, a risk assessment is used to evaluate the
    effectiveness of security policies and recommend countermeasures to ensure adequate
    protection of information technology resources.

    NIST SP 800-30, Risk Management Guide for Information Technology Systems, offers a
    nine step systematic approach to conducting a risk assessment that includes: (1) system
    characterization; (2) threat identification; (3) vulnerability identification; (4) control analysis;
    (5) likelihood determination; (6) impact analysis; (7) risk determination; (8) control
    recommendation; and (9) results documentation.

    A risk assessment was conducted for CTS GSS in August 2010 that adequately addresses all
    of the elements outlined in the NIST guidance.

V. Independent Security Control Testing
    A Security Test and Evaluation (ST&E) was completed for CTS GSS in May 2009 as a part
    of the system’s C&A process. The ST&E was conducted by a contractor, Network Security
    Systems Plus Inc., which was operating independently from HRS. We reviewed the controls
    within the scope of this test to ensure that they included a review of the appropriate

                                                     5
     management, operational, and technical controls required for a system with a “moderate”
     security categorization according to NIST SP 800-53 Revision 3, Recommended Security
     Controls for Federal Information Systems.

     The ST&E report labeled each security control as fully satisfied, partially satisfied, not
     satisfied, not verified, or not applicable. Several controls were also identified as controls
     inherited from OPM’s                                                            Nothing came to
     our attention to indicate that the security controls of CTS GSS have not been adequately
     tested by an independent source.

VI. Security Control Self-Assessment
     FISMA requires that the IT security controls of each major application owned by a federal
     agency be tested on an annual basis. In the years that an independent ST&E is not being
     conducted on a system, the system’s owner must conduct an internal self-assessment of
     security controls.

     HRS conducted a self-assessment of the system in June 2010. The assessment included a
     review of the relevant management, operational, and technical security controls outlined in
     NIST SP 800-53 Revision 3. Nothing came to our attention to indicate that the security
     controls of CTS GSS have not been adequately tested by HRS.

VII. Contingency Planning and Contingency Plan Testing
     NIST SP 800-34, Contingency Planning Guide for Information Technology Systems, states
     that effective contingency planning, execution, and testing are essential to mitigate the risk of
     system and service unavailability. OPM’s security policies require all major applications to
     have viable and logical disaster recovery and contingency plans, and that these plans be
     annually reviewed, tested, and updated.

     Contingency Plan
     The CTS GSS contingency plan documents the functions, operations, and resources
     necessary to restore and resume CTS GSS operations when unexpected events or disasters
     occur. The CTS GSS contingency plan closely follows the format suggested by NIST SP
     800-34 and is compliant with the required elements of the guidance.

     Contingency Plan Test
     NIST SP 800-34, Contingency Planning Guide for Information Technology Systems,
     provides guidance for testing contingency plans and documenting the results. Contingency
     plan testing is a critical element of a viable disaster recovery capability.

     A simulated “table top” test of the CTS GSS contingency plan was conducted by HRS
     officials in April 2010. The simulation test involved reviewing a series of steps that must be
     completed to recover the system in a predetermined disaster situation. The testing
     documentation contained an analysis and review of the simulation results. We reviewed the
     testing documentation to determine if the test conformed with NIST 800-34 guidelines.


                                                    6
While HRS conducts annual table top tests of the contingency plan, they have never
performed a functional disaster recovery exercise. A functional exercise would allow HRS to
further validate their readiness for disruptive events by performing system restoration
activities in an operational environment. Since CTS GSS is a general support system that
houses five major OPM systems and eight minor systems, we believe that a functional
exercise to test the contingency plan should be conducted annually.

NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and
Capabilities, Section 5.1, states that “Organizations should conduct functional exercises
periodically; following organizational changes, updates to an IT plan, or the issuance of new
TT&E [Test, Training, and Exercise] guidance; or as otherwise needed.” Failure to conduct
functional contingency plan exercises prevents HRS from discovering unanticipated
technical or logistical problems or limitations that could arise while restoring the CTS GSS at
the alternate location.

Recommendation 1
We recommend HRS conduct a functional contingency plan test for the CTS GSS.

HRS Response:
“HRS concurs with the recommendation and will conduct a functional contingency plan
test for the CTS GSS during FY12.”

OIG Reply:
As part of the audit resolution process, we recommend that HRS provide Internal Oversight
and Compliance (IOC) with evidence that it has conducted a functional contingency plan test.

Recommendation 2
We recommend HRS coordinate with the system owners whose systems reside on the CTS
GSS to encourage their participation in the functional contingency plan exercises.

HRS Response:
“HRS concurs with this recommendation and will coordinate the functional contingency
plan test with system owners whose systems reside on the CTS GSS 60 days prior to the
actual test.”

OIG Reply:
As part of the audit resolution process, we recommend that the HRS provide IOC with
evidence that it has coordinated with the system owners whose systems reside on the CTS
GSS.




                                              7
VIII. Privacy Impact Assessment (PIA)
      The E-Government Act of 2002 requires agencies to perform a screening of federal
      information systems to determine if a PIA is required for that system. OMB Memorandum
      M-03-22 outlines the necessary components of a PIA. The purpose of the assessment is to
      evaluate any vulnerabilities of privacy in information systems and to document any privacy
      issues that have been identified and addressed.

      HRS completed an initial privacy threshold analysis of CTS GSS and determined that a PIA
      was not required for this system because it does not contain Personally Identifiable
      Information (PII). Although several applications residing on CTS GSS servers contain PII,
      the HRS staff supporting CTS GSS does not have access to this data.

 IX. Plan of Action and Milestones Process (POA&M)
      A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and
      monitoring the progress of corrective efforts for IT security weaknesses. OPM has
      implemented an agency-wide POA&M process to help track known IT security weaknesses
      associated with the agency’s information systems.

      The OIG evaluated the CTS GSS POA&M and verified that it follows the format of OPM’s
      standard template, and has been routinely submitted to OCIO for evaluation. We also
      determined that the POA&M contained action items for all security weaknesses identified
      through various security control tests and audits.

      Nothing came to our attention to indicate that there are any current weaknesses in the
      management of the CTS GSS POA&M.

  X. NIST SP 800-53 Evaluation
      NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
      Systems, provides guidance for implementing a variety of security controls for information
      systems supporting the federal government. As part of this audit, we evaluated the degree to
      which a subset of these controls had been implemented for CTS GSS, including:

      •   AC-2 Account Management                       •   AC-5 Separation of Duties
      •   AC-6 Least Privilege                          •   AC-11 Session Lock
      •   AT-3 Security Training                        •   AT-4 Security Training Records
      •   AU-2 Auditable Events                         •   AU-6 Audit Review, Analysis,
                                                            Reporting
      •   CA-7 Continuous Monitoring                    •   CM-2 Baseline Configuration
      •   CM-3 Configuration Change Control             •   CP-3 Contingency Training
      •   IA-1 Identification and Authentication        •   IA-2 Identification and Authentication
          Policy and Procedures                             (Organizational user)
      •   IA-5 Authenticator Management                 •   IR-2 Incident Response Training
      •   IR-5 Incident Monitoring                      •   MA-1 System Maintenance Policy and
                                                            Procedures

                                                    8
•   MA-2 Controlled Maintenance                     •   MP-6 Media Sanitization and Disposal
•   PL-4 Rules of Behavior                          •   PE-1 through PE-18 Physical and
•   PS-4 Personnel Termination                          Environmental Controls
•   RA-5 Vulnerability Scanning                     •   SA-7 User-Installed Software
•   SC-5 Denial of Service Protection               •   SC-13 User of Cryptography
•   SI-2 Flaw Remediation                           •   SI-9 Information Input Restrictions
•   PM-1 Information Security Program Plan

These controls were evaluated by interviewing individuals with CTS GSS security
responsibilities, reviewing documentation and system screenshots, viewing demonstrations of
system capabilities, and conducting tests directly on the system.

Although it appears that the majority of NIST SP 800-53 Revision 3 security controls have
been successfully implemented for the CTS GSS, several tested controls were not fully
satisfied.

a) PE-13 Fire Protection
    The CTS GSS computer room does not contain an automatic fire suppression system.
    The CTS GSS currently relies on hand-held fire extinguishers located within the
    computer room as their sole means of fire suppression. HRS stated that they have
    completed an informal cost benefit analysis and concluded it would not be cost effective
    to install an automated fire suppression system. The HRS Standard Operating Procedures
    states that the organization has accepted the risk, but no formal documentation or analysis
    has been created.

    NIST SP 800-53 Rev. 3 requires that “The organization employs and maintains fire
    suppression and detection devices/systems for the information system that are supported
    by an independent energy source.” One of the control enhancements for a moderate risk
    system such as CTS GSS requires that “The organization employs an automatic fire
    suppression capability for the information system when the facility is not staffed on a
    continuous basis.” While the Macon building is staffed on a continuous basis, we
    observed that the computer room is often unoccupied.

    Failure to implement an automatic fire suppression system increases the risk that a fire
    could spread within the computer room before it could be extinguished by a person.
    Also, it would be hazardous for a person to attempt to extinguish a fire with a handheld
    fire extinguisher. This would greatly affect the availability of the applications that reside
    on the CTS GSS.

    Recommendation 3
    We recommend HRS install a fire suppression system within the Macon facility’s
    computer room.




                                                9
   HRS Response:
   “HRS employs and maintains a Johnson Controls IFC fire detection and alarm system
   that is automatically activated in the event of a fire and has been duly inspected and
   certified. Fire detection devices/systems include hand-held and wheeled fire
   extinguishers, fixed fire hoses, and state-of-the-art laser smoke detectors. Having an
   automatic fire suppression system increases the risk of the suppression agent causing
   more damage to the equipment than an actual fire. There is minimal material in the
   room that is combustible thus reducing the potential of a fire spreading. HRTT does
   not currently employ automatic fire suppression devices due to cost and practicality
   constraints. HRTT’s strategy is to monitor closely and maintain a rapid response
   capability to enable suppression in a surgical fashion in the event of a fire rather than
   broadcast a fire suppression agent and affect the entire computer room, making all
   systems there unreachable for an unacceptable period of time. HRTT has in place a
   number of countermeasures to reduce the fire risk.

    •   A Macon fire station is less than two miles away from the facility (Macon-Bibb
        County Fire Department is A-1 rated).
    •   The facility is staffed 24/7 by a security guard who is a state-certified,
        professional law enforcement officer trained as a first responder that has access
        to the computer room to manually activate the fire suppression mechanisms.
    •   Existence of a laser smoke detection system in the computer room which employs
        detectors that are multiple times more sensitive than normal smoke detectors and
        trigger automatic alarms to the security staff.
    •   Security guards also perform physical walk-through inspection of all areas every
        2 to 4 hours.
    •   The walls and ceiling of the computer room are made of reinforced concrete and
        its doors are fire-resistant rated at 1200 degrees Fahrenheit for one hour.

   HRS plans to conduct a cost-benefit analysis and formal risk assessment to evaluate
   the costs and risks of implementing an automatic fire suppression system by the end of
   FY12 Quarter 2.”

   OIG Reply:
   We continue to recommend that HRS install an automatic fire suppression system in the
   Macon facility’s computer room. However, we would consider supporting the closure of
   this recommendation if HRS provides IOC with a thorough risk assessment or cost-
   benefit analysis clearly illustrating that the costs and risks of implementing a fire
   suppression system exceed the benefits. HRS would also need to provide IOC with an
   approved official risk acceptance document.

b) PE-1 Physical and Environmental Protection Policy and Procedure
   Although the current employees at the OPM Macon facility have an informal
   understanding of their roles and responsibilities when responding to an emergency, HRS
   does not have any documented emergency response procedures and does not conduct any
   formal emergency response training.

                                            10
NIST SP 800-53 Rev. 3 requires that an organization have “A formal, documented
physical and environmental protection policy that addresses purpose, scope, roles and
responsibilities, management commitment, coordination among organizational entities,
and compliance” and “Formal, documented procedures to facilitate the implementation of
the physical and environmental protection policy and associated physical and
environmental protection controls.”

Furthermore, FISCAM requires that “Staff should be trained in and aware of their
responsibilities in preventing, mitigating, and responding to emergency situations…
information on emergency procedures and responsibilities can be provided through
training sessions and by distributing written policies and procedures.”

Failure to establish documented emergency response procedures increases the likelihood
that personnel will not know how to respond in emergency situations within the computer
room. This issue is magnified by the fact there is no automatic fire suppression system in
the computer room as stated above.

Recommendation 4
We recommend HRS document and implement formal emergency response procedures.

HRS Response:
“HRS concurs with the recommendation and will document and implement formal
emergency response procedures by the end of FY12 Quarter 1.”

OIG Reply:
As part of the audit resolution process, we recommend that the HRS provide IOC with
evidence that it has documented and implemented formal emergency response
procedures.

Recommendation 5
We recommend HRS conduct annual emergency response training.

HRS Response:
“HRS concurs with this recommendation and will conduct annual emergency response
training by the end of FY12 Quarter 2.”

OIG Reply:
As part of the audit resolution process, we recommend that the HRS provide IOC with
evidence that it conducts annual emergency response training.




                                         11
                          Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•                  , Group Chief
•                    , Senior Team Leader
•                       , Auditor in Charge
•                   , IT Auditor




                                              12
                                                                                                                2

        automatic fire suppression system increases the risk of the suppression agent causing
        more damage to the equipment than an actual fire. There is minimal material in the room
        that is combustible thus reducing the potential of a fire spreading. HRTT does not
        currently employ automatic fire suppression devices due to cost and practicality
        constraints. HRTT’s strategy is to monitor closely and maintain a rapid response
        capability to enable suppression in a surgical fashion in the event of a fire rather than
        broadcast a fire suppression agent and affect the entire computer room, making all
        systems there unreachable for an unacceptable period of time. HRTT has in place a
        number of countermeasures to reduce the fire risk.

              •   A Macon fire station is less than two miles away from the facility (Macon-Bibb
                  County Fire Department is A-1 rated).
              •   The facility is staffed 24/7 by a security guard who is a state-certified,
                  professional law enforcement officer trained as a first responder that has access
                  to the computer room to manually activate the fire suppression mechanisms.
              •   Existence of a laser smoke detection system in the computer room which
                  employs detectors that are multiple times more sensitive than normal smoke
                  detectors and trigger automatic alarms to the security staff.
              •   Security guards also perform physical walk-through inspection of all areas
                  every 2 to 4 hours.
              •   The walls and ceiling of the computer room are made of reinforced concrete and
                  its doors are fire-resistant rated at 1200 degrees Fahrenheit for one hour.

        HRS plans to conduct a cost-benefit analysis and formal risk assessment to evaluate the
        costs and risks of implementing an automatic fire suppression system by the end of FY12
        Quarter 2.

    3. Section X. NIST SP 800-53 Evaluation, b) PE-1 Physical and Environmental
       Protection Policy and Procedure

        OIG Recommendation 4: We recommend HRS document and implement formal
        emergency response procedures.

        HRS Response: HRS concurs with the recommendation and will document and
        implement formal emergency response procedures by the end of FY12 Quarter 1.

        OIG Recommendation 5: We recommend HRS conduct annual emergency response
        training.

        HRS Response: HRS concurs with this recommendation and will conduct annual
        emergency response training by the end of FY12 Quarter 2.

If you should need any additional information or have any questions, please contact




www.opm.gov       Recruit, Retain and Honor a World-Class Workforce to Serve the American People   www.usajobs.gov
                                                                                                               3

cc:


Senior Team Leader
Office of Audits
Office of the Inspector General

Janet Barnes
Deputy Director
Internal Oversight and Compliance


Manager
HR Tools and Technology


Designated Security Officer
HR Tools and Technology


Senior Agency Information Security Officer
Office of the Chief Information Officer

Kathleen McGettigan
Deputy Associate Director
Human Resources Solutions

Francis O’H Esquivel
Deputy Associate Director
Leadership and Talent Management Solutions




www.opm.gov      Recruit, Retain and Honor a World-Class Workforce to Serve the American People   www.usajobs.gov
